No. 19-309
In the

Supreme Court of the United States
__________________

JOHN C. CARNEY, GOVERNOR OF DELAWARE,
Petitioner,
v.
JAMES R. ADAMS,
Respondent.
__________________
On Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit

__________________
Corrected Amicus Curiae Brief of the Republican
National Committee in Support of Petitioner
__________________
Justin Riemer
Christopher White
Republican National
Committee
310 1st Street SE
Washington, DC 20003
(202) 863-8626

Richard B. Raile
Counsel of Record
E. Mark Braden
Katherine L. McKnight
Trevor M. Stanley
Baker & Hostetler LLP
1050 Connecticut Ave., N.W.
Suite 1100
Washington, DC 20036
(202) 861-1711
rraile@bakerlaw.com

Patrick T. Lewis
Baker & Hostetler LLP
Key Tower
127 Public Square
Suite 2000
Cleveland, OH 44114
(216) 861-7096
Counsel for Amicus Curiae

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
1. Does the First Amendment prevent Delaware
from regulating the discretion its political branches
exercise over the judicial-appointment process, even
though it plainly does not prohibit state (or federal)
officers from appointing or rejecting judicial candidates
on the basis of their protected speech and association?
2. Does a plaintiff have standing to challenge
judicial eligibility requirements that may not prevent
him from obtaining a seat, in the hope of an injunction
that would do nothing to assure him of even being
considered for an appointment?

ii
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . iv
INTEREST OF THE AMICUS . . . . . . . . . . . . . . . . . 1
INTRODUCTION AND
SUMMARY OF THE ARGUMENT . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
I. Delaware’s Regulation of Politics Is
Appropriately Tailored to Its Overwhelming
Sovereign Interests and Justifies a
Comparatively Small Burden on the Plaintiff’s
First Amendment Rights . . . . . . . . . . . . . . . . . . . 4
A. A State’s Compelling Interest in Controlling
I t s J u d i ci a l -Appoi nt m en t P r o c e s s
Necessitates a Comparatively Deferential
Standard of Scrutiny . . . . . . . . . . . . . . . . . . . . 5
B. Delaware Has Tailored Its Regulation to Its
Overriding Sovereign Interests. . . . . . . . . . . . 9
1. Delaware’s Interests Are Compelling and
the Means Tailored . . . . . . . . . . . . . . . . . 11
2. Party Membership Is the Best Available
Proxy for Achieving These Compelling
Ends . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
C. The First Amendment Interests at Issue Are
Comparatively Weak . . . . . . . . . . . . . . . . . . . 21

iii
D. Upholding Article IV, Section 3 Will Not
Impact Other Applications of First
Amendment Doctrine; Striking It Down Will
Raise a Host of New Questions. . . . . . . . . . . 23
II. The Plaintiff Cannot Show Injury Where He
May Obtain an Appointment, or Redressability
Where a Favorable Ruling Would Allow
Him Still To Be Rejected for Purely Political
Reasons . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32

iv
TABLE OF AUTHORITIES
CASES
ASARCO Inc. v. Kadish,
490 U.S. 605 (1989). . . . . . . . . . . . . . . . . . . . . . . 31
Anderson v. Celebrezze,
460 U.S. 780 (1983). . . . . . . . . . . . . . . . . . . . . . . . 7
Branti v. Finkel,
445 U.S. 507 (1980). . . . . . . . . . . . . . . . . 17, 19, 20
Bridgeville Rifle & Pistol Club, Ltd. v. Small,
176 A.3d 632 (Del. 2017) . . . . . . . . . . . . . . . . . . 29
Burdick v. Takushi,
504 U.S. 428 (1992). . . . . . . . . . . . . . . . . . . . . 7, 21
Cuffley v. Mickes,
208 F.3d 702 (8th Cir. 2000). . . . . . . . . . . . . . . . . 8
Daunt v. Benson,
No. 1:19-cv-00614, 2019 WL 6271435 (W.D.
Mich. Nov. 25, 2019) . . . . . . . . . . . . . . . . . . . . . . 25
Elrod v. Burns,
427 U.S. 347 (1976). . . . . . . . . . . . . . . . . . . . . . . . 4
Eu v. San Francisco Cty. Democratic Cent. Comm.,
489 U.S. 214 (1989). . . . . . . . . . . . . . . . . . . . . . . 16
Evenwel v. Abbott,
136 S. Ct. 1120 (2016). . . . . . . . . . . . . . . . . . . . . 10
Garcetti v. Ceballos,
547 U.S. 410 (2006). . . . . . . . . . . . . . . . . . . . . . . . 5

v
Gregory v. Ashcroft,
501 U.S. 452 (1991). . . . . . . . . . . . . . . . . . . 5, 6, 10
Growe v. Emison,
507 U.S. 25 (1993). . . . . . . . . . . . . . . . . . . . . . . . 18
Hunt v. Cromartie,
526 U.S. 541 (1999). . . . . . . . . . . . . . . . . . . . . . . 25
Janus v. AFSCME, Council 31,
138 S. Ct. 2448 (2018). . . . . . . . . . . . . . 7, 9, 19, 23
Lujan v. Defenders of Wildlife,
504 U.S. 555 (1992). . . . . . . . . . . . . . . . . . . . 27, 31
Marbury v. Madison,
5 U.S. (1 Cranch) 137 (1803) . . . . . . . . . . . . . . 2, 9
Minn. State Bd. for Cmty. Colleges v. Knight,
465 U.S. 271 (1984). . . . . . . . . . . . . . . . . . . . . . . 20
Mt. Healthy City Sch. Dist. Bd. of Educ. v. Doyle,
429 U.S. 274 (1977). . . . . . . . . . . . . . . . . . . . . . . . 7
Munro v. Socialist Workers Party,
479 U.S. 189 (1986). . . . . . . . . . . . . . . . . . . . . . . . 7
N.L.R.B. v. Noel Canning,
573 U.S. 513 (2014). . . . . . . . . . . . . . . . . . . . . . . . 9
R.R. Comm’n of Tex. v. Pullman Co.,
312 U.S. 496 (1941). . . . . . . . . . . . . . . . . . . . 29, 30
Republican Party of Minn. v. White,
536 U.S. 765 (2002). . . . . . . . . . . . . . . . . . . . . . . 18
In re: Request for an Opinion of the Justices,
155 A.3d 371 (Del. 2017) . . . . . . . . . . . . . . . . . . 30

vi
Rucho v. Common Cause,
139 S. Ct. 2484 (2019). . . . . . . . . . . . . . . . . . . . . 26
Rutan v. Republican Party of Ill.,
497 U.S. 62 (1990). . . . . . . . . . . . . . . . . . . . . . . . 25
Simon v. E. Ky. Welfare Rights Org.,
426 U.S. 26 (1976). . . . . . . . . . . . . . . . . . . . . . . . 31
Snowden v. Hughes,
321 U.S. 1 (1944). . . . . . . . . . . . . . . . . . . . . . . . . 10
Sugarman v. Dougall,
413 U.S. 634 (1973). . . . . . . . . . . . . . . . . . . passim
Supreme Court of Va. v. Consumers Union of U.S.,
Inc.,
446 U.S. 719 (1980). . . . . . . . . . . . . . . . . . . . . . . 18
Tashjian v. Republican Party of Connecticut,
479 U.S. 208 (1986). . . . . . . . . . . . . . . . . . . . . . . . 4
Tenn. Wine & Spirits Retailers Ass’n v. Thomas,
139 S. Ct. 2449 (2019). . . . . . . . . . . . . . . . . . . . . 29
Town of Greece, N.Y. v. Galloway,
572 U.S. 565 (2014). . . . . . . . . . . . . . . . . . . . . . . 24
United States v. Nat’l Treasury Emps. Union,
513 U.S. 454 (1995). . . . . . . . . . . . . . . . . . . . . 5, 22
Vieth v. Jubelirer,
541 U.S. 267 (2004). . . . . . . . . . . . . . . . . . . . . 8, 26
Warth v. Seldin,
422 U.S. 490 (1975). . . . . . . . . . . . . . . . . . . . . . . 27

vii
Williams-Yulee v. Fla. Bar,
575 U.S. 433 (2015). . . . . . . . . . . . . . . . . . . . . . . 18
CONSTITUTION
Del. Const., art. IV, § 1 . . . . . . . . . . . . . . . . . . . . . . . 6
Del. Const., art. IV, § 3 . . . . . . . . . . . . . . . . . . passim
OTHER AUTHORITIES
Brennan Center for Justice, Judicial Selection: An
Interactive
Map,
available
at
http://judicialselectionmap.brennancenter.org/?
court=Supreme (last visited Jan. 27, 2020) . . . . 18
Erwin Chemerinsky, Ideology and the Selection of
Federal Judges, 36 U.C. Davis L. Rev. 619
(2003) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Delaware State Bar Association, Legal Directory,
available at https://www.dsba.org/publications/
delaware-legal-directory/ . . . . . . . . . . . . . . . . . . 30
James M. O’Fallon, Marbury, 44 Stan. L. Rev. 219
(1992). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
E.E. Schattschneider, Party Government (1942) . . 15
Cass R. Sunstein et al., Are Judges Political? An
Empirical Analysis of the Federal Judiciary
(2006). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
The Federalist No. 10 (J. Madison) (Jacob Cooke
ed., 1961) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
The Federalist No. 43 (J. Madison) (Jacob Cooke
ed., 1961) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

viii
Virginia Van Der Veer, Hugo Black and the K.K.K.,
American Heritage (April 1968), reprinted at
https://www.americanheritage.com/hugo-blackand-kkk . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

1
INTEREST OF THE AMICUS
The Republican National Committee (“RNC”)
manages the Republican Party’s business at the
national level, supports Republican candidates for
offices of all types, coordinates fundraising and election
strategy, and develops and promotes the national
Republican platform. The RNC has a vital interest in
laws governing nominations and appointments to the
highest state and federal offices. Major political parties
play a central role in these processes by nominating
candidates to office and providing a critical layer of
quality-control vetting by officials with a vested
interest in putting forward only those most likely to
serve the common good honorably and competently.
The Third Circuit’s unprecedented and illogical
importation of patronage principles into the judicialappointment process risks defeating states’ ability to
vet candidates for their highest offices, and it hampers
political parties’ ability to participate in the process
and advance the best candidates. The ruling below, if
left uncorrected, would impact the RNC’s members and
constituents and Republican interests in Delaware and
elsewhere.1

1

Pursuant to Supreme Court Rule 37.6, the RNC states that no
counsel for a party authored this brief in whole or in part and that
no person other than the RNC or its counsel made a monetary
contribution toward its preparation or submission. Pursuant to
Supreme Court Rule 37.3, the RNC states that the petitioner has
filed a blanket consent to amicus briefs with the clerk and that the
respondent has consented in writing to the filing of this brief.

2
INTRODUCTION AND
SUMMARY OF THE ARGUMENT
The judicial-appointment process is inherently
political. Presidents, governors, legislators, and (in
many states) voters select judges on the basis of their
political affiliations and views—and they have done so
ever since Marbury v. Madison. But the court below
erroneously held that, all along, the First Amendment
has restricted this very practice. This was an
overzealous extension of this Court’s politicalpatronage precedents into an arena where they cannot
plausibly apply.
Instead, under bedrock principles of federalism,
Delaware’s choices in structuring its own constitutional
offices merit the highest deference. It is undisputed
that the First Amendment would not prevent
Delaware’s political branches from packing the courts
with members of a favored party, if they chose to do so.
It necessarily follows that Delaware has every right,
through its Constitution, to restrict its officers’ ability
to do just that. Indeed, the court of appeals expressed
a hope that, notwithstanding its ruling, Delaware’s
political branches will continue the State’s tradition of
“bipartisan excellence” and thus continue choosing
judges on the basis of their speech and political
affiliation. This decision illogically forbade the State
from requiring conduct that the court of appeals itself
identified as permissible and even admirable.
This absurd result follows from many errors of law.
This brief examines just two of them.

3
First, Article IV, Section 3 of the Delaware
Constitution is appropriately tailored to the highest
order of state interests. The court below combined an
unprecedented reading of this Court’s patronage cases
with a misunderstanding of the judicial-appointment
process and how Article IV, Section 3 regulates it.
Delaware’s judges are not mere employees; they are
among its most important officers. Delaware’s interest
in determining how they are appointed is among the
highest a state could ever have. And its choice to forbid
its political branches from appointing only members of
one party, and to require that they choose members of
the major opposition party, is carefully tailored to the
State’s particularized interests in fostering judicial
independence and viewpoint diversity. At the same
time, any impingement on the plaintiff’s First
Amendment rights is minimal, since his protected
views and affiliations will be subject to scrutiny and
may disqualify him even if he receives his requested
relief.
Second, the plaintiff lacks standing. He cannot show
a concrete injury until he applies for office, which he
has not done and may never do. That is so because
Article IV, Section 3 may be read to allow independents
to sit on the courts, and the Court should not assume
(as the courts below did) that it will prevent the
plaintiff from being considered. That aside, the plaintiff
also cannot show redressability. Even with his
requested relief, he still may be rejected because he is
not a Democrat. There is no reason to believe that, with
or without Article IV, Section 3, the political branches
would give the plaintiff any serious consideration.

4
The only real “right” this decision affords belongs to
the State’s political branches, and it is a newly
invented federal right for state politicians to exercise
unfettered partisan discretion in appointing judges.
The ruling has almost no chance of increasing the
number of independents on the bench; its likely result
is single-party hegemony. Worse, it risks calling to sea
an armada of federal claims by disappointed judicial
candidates, every one of whom could plausibly claim to
have been rejected on the basis of First Amendment
protected speech or association. That error cannot be
left uncorrected.
ARGUMENT
I. Delaware’s Regulation of Politics Is
Appropriately Tailored to Its Overwhelming
Sovereign Interests and Justifies a
Comparatively Small Burden on the Plaintiff’s
First Amendment Rights
This Court’s First Amendment inquiry weighs state
interests against impingements on First Amendment
rights, assessing both “the legitimacy and strength of
[the] interests” and “the extent to which those interests
make it necessary to burden the plaintiff’s rights.”
Tashjian v. Republican Party of Connecticut, 479 U.S.
208, 214 (1986) (internal quotation marks omitted)
(standard for assessing state election laws); see also
Elrod v. Burns, 427 U.S. 347, 362 (1976) (plurality
opinion) (similar approach under “exacting scrutiny”).
Those considerations apply both at the threshold stage
of assessing what level of scrutiny applies and at the
application stage of determining whether the burden
on First Amendment rights is justified. Thus, where

5
First Amendment scrutiny reaches arenas of unique
state sensitivity, such as its interest as an employer,
Garcetti v. Ceballos, 547 U.S. 410, 418 (2006), this
Court has permitted restraints “that would be plainly
unconstitutional if applied to the public at large.”
United States v. Nat’l Treasury Emps. Union, 513 U.S.
454, 465 (1995).
The balance here tilts decidedly in favor of the
State. Delaware’s interest in regulating its own
judicial-appointment process is of the highest order,
and the plaintiff’s interests in a marginal difference in
scrutiny of his protected speech and association is
comparatively minimal. This means that, on the front
end, the Court should choose a comparatively lenient
standard of review and, on the back end, conclude that
Article IV, Section 3 satisfies it.
A. A State’s Compelling Interest in
Controlling Its Judicial-Appointment
Process Necessitates a Comparatively
Deferential Standard of Scrutiny
Delaware’s interest in controlling its own judicialappointment process is of the highest magnitude.
Control of this process is among the most
“fundamental” and inalienable elements of
sovereignty—going even “beyond an area traditionally
regulated by the States” to the very peak of internal
state concern. Gregory v. Ashcroft, 501 U.S. 452, 460
(1991). The states’ power “to preserve the basic
conception of a political community” necessarily implies
the “power and responsibility” to establish appointment
methods for “important nonelective executive,
legislative, and judicial positions.” Sugarman v.

6
Dougall, 413 U.S. 634, 647 (1973) (emphasis added)
(internal quotation marks omitted). Accordingly, this
Court’s scrutiny has not been as “demanding” in this
context as in others, and classifications normally
deemed invidious can be justified here if they are
employed in a “narrowly confined” way. Id. at 648–49.
The court of appeals failed to give these paramount
interests their due weight. Instead, it treated
Delaware’s judiciary as akin to “a veterans’
administrative services department, an assistant
director of public information, assistant district
attorneys, city solicitors and assistant city solicitors, a
solicitor for the Northeast Pennsylvania Hospital and
Education Authority, and a city manager, among
others.” Pet.App. 22a–23a (footnotes omitted). These
analogies are wrong. Delaware’s judges, like its
governor, senators, and representatives, are “its most
important government officials.” Gregory, 501 U.S. at
463. As this Court is to the Nation, Delaware’s courts
are to the State. Its very “judicial power” is “vested in
a Supreme Court, a Superior Court, a Court of
Chancery, a Family Court, a Court of Common Pleas,
a Register’s Court, Justices of the Peace, and such
other courts as the General Assembly” may create. Del.
Const., art. IV, § 1. In their official capacities,
Delaware’s judges exercise a piece of the State’s
sovereignty and constitute one of its three co-equal
branches of government.
For these reasons, the plaintiff cannot seriously
contend that “the legal principles set down by this
Court in the patronage cases” apply here in full force.
Cert. Opp. 2. To the contrary, there is no “litmus-paper

7
test” for balancing sensitive state interests against
First Amendment burdens. Anderson v. Celebrezze, 460
U.S. 780, 789 (1983) (internal quotation marks
omitted). A state’s judicial-appointment process is like
its election process. Just as a state has a right and duty
to “preserv[e] the integrity of the electoral process” and
even to “regulat[e] the number of candidates on the
ballot,” Munro v. Socialist Workers Party, 479 U.S. 189,
194 (1986), it has the right and duty to vet potential
judges and regulate the appointment process. “[T]o
subject every” state burden on judicial candidacies “to
strict scrutiny and to require that the [act] be narrowly
tailored to advance a compelling state interest…would
tie the hands of States seeking to assure” that judges
are fit to serve by the standards they have, by their
sovereign right, identified. Burdick v. Takushi, 504
U.S. 428, 433 (1992).
Yet, under the plaintiff’s erroneous view, all of a
judicial candidate’s First Amendment-protected speech
and association would be off limits—since a candidate’s
writings on judicial philosophy and associations with
public-interest groups are, no less than the candidate’s
political-party membership, protected by the First
Amendment. Cf. Janus v. AFSCME, Council 31, 138 S.
Ct. 2448, 2464 (2018) (treating collective-bargaining
speech as no different from “the platform of one of the
major political parties”). Similarly, under this Court’s
patronage cases, the but-for motive to restrict positions
on the basis of protected speech and association is no
less suspect than the codification of those
classifications in law. See Mt. Healthy City Sch. Dist.
Bd. of Educ. v. Doyle, 429 U.S. 274, 286 (1977)
(plurality opinion). A strict First Amendment standard,

8
if applied, may well “render unlawful all consideration
of political affiliation” in judicial nominations. Vieth v.
Jubelirer, 541 U.S. 267, 294 (2004) (plurality opinion).
That is untenable. Speech and association are the
principal factors on which judicial candidacies rise and
fall. They, in virtually every instance, are the but-for
cause of the executive’s choice to nominate or not and
the legislature’s choice to confirm or not. See Erwin
Chemerinsky, Ideology and the Selection of Federal
Judges, 36 U.C. Davis L. Rev. 619, 624 (2003) (“Every
President has appointed primarily, if not almost
exclusively, individuals from the President’s political
party. Ever since George Washington, Presidents have
looked to ideology in making judicial picks.”).
Then-Supreme Court nominee Hugo Black had to
account for his prior membership in the Ku Klux Klan
(and renounce that group’s principles) to obtain the
Senate’s trust—and rightly so.2 But see Cuffley v.
Mickes, 208 F.3d 702, 709 (8th Cir. 2000) (applying
ordinary patronage rules to invalidate prohibition on
Klan members’ participation in government program).
Similarly, it is no secret that some viewpoints
(originalist, living-constitutionalist, etc.) and some
associations (Federalist Society, ACLU, etc.) are
deemed essential in some appointment and
confirmation environments and fatal in others. This is
so even though all of these associational engagements
“occup[y] the highest rung of the hierarchy of First

2

Virginia Van Der Veer, Hugo Black and the K.K.K., American
Heritage (April 1968), reprinted at https://www.americanheritage.
com/hugo-black-and-kkk (last visited Jan. 27, 2020).

9
Amendment values and merit[] special protection.”
Janus, 138 S. Ct. at. 2476 (internal quotation and edit
marks omitted). The prerogative to vet a judicial
candidate’s memberships, affiliations, and views is an
indispensable feature, not a defect, in the American
system of government.
Subjecting this process to restrictive First
Amendment scrutiny would run counter to national
tradition. The political war over judicial appointments
is as old, literally, as Marbury v. Madison, 5 U.S. (1
Cranch) 137 (1803). See id. at 138 (describing the battle
over judicial commissions); see also James M. O’Fallon,
Marbury, 44 Stan. L. Rev. 219, 221 (1992) (citing
events leading up to that decision as “ensur[ing] that
the Judiciary would be a focal point of partisan conflict
under the new administration.”). And it has continued
at the federal and state levels ever since. That this
“tradition” of appointing judges on the basis of their
First Amendment-protected speech and association
“dates at least to” the founding generation is powerful
evidence that First Amendment protection does not
reach judicial candidates in the same way it reaches
public-school janitors. See N.L.R.B. v. Noel Canning,
573 U.S. 513, 516 (2014). The federal judiciary cannot
plausibly entertain lawsuits subjecting these processes
to discovery and adjudication.
B. Delaware Has Tailored Its Regulation to Its
Overriding Sovereign Interests
Unlike many states, Delaware has attempted to
limit its officers’ otherwise unlimited discretion over
appointments. But this does not diminish its interest in
“establishing its own form of government.” Sugarman,

10
413 U.S. at 642 (internal quotation marks omitted). Its
choice to be “the only State” with a provision like
Article IV, Section 3, Cert. Opp. 4, only underscores its
interest in being free from other states’ choices (or the
federal government’s). Evenwel v. Abbott, 136 S. Ct.
1120, 1141 (2016) (Thomas, J., concurring in the
judgment) (observing that states’ status as
“laboratories of democracy” “extends to experimenting
about the nature of democracy itself”). Reasonable
minds may disagree with Delaware’s approach, but its
right to choose is fundamental to our constitutional
framework.
Because the First Amendment does not constrain
state actors’ discretion over appointments, it also
cannot be read to forbid Delaware’s choice in regulating
that discretion. It is odd that the court of appeals hoped
its ruling will not dissuade Delaware’s officers from
adhering to Article IV, Section 3 in their discretionary
choices and that they will continue to make
“bipartisan” appointments from across the spectrum.
Pet.App.41a. But if the First Amendment permits
Delaware’s officers to do this of their own will, it
equally permits the body politic to demand it of them in
the State’s Constitution. See Snowden v. Hughes, 321
U.S. 1, 11 (1944) (“If the action of the Board is official
action it is subject to constitutional infirmity to the
same but no greater extent than if the action were
taken by the state legislature.”); Gregory, 501 U.S. at
460 (“Through the structure of its government, and the
character of those who exercise government authority,
a State defines itself as a sovereign.”); The Federalist
No. 43, at 292 (J. Madison) (Jacob Cooke ed., 1961)
(“Whenever the states may chuse to substitute other

11
republican forms, they have a right to do so….”). The
court of appeals did not explain how permissible—even
admirable—state action becomes impermissible
because of how the state achieves it.
Indeed, Article IV, Section 3 stands on the firmest
ground because it is tailored to Delaware’s compelling
interests in judicial independence and balance. Its use
of partisan affiliation is, in particular, tailored because
it is the only workable metric for administering its
interests. No one has identified a better approach or
one that imposes a lighter burden on First Amendment
rights.
1. Delaware’s Interests Are Compelling
and the Means Tailored
a. The State’s Interests. The means of Article IV,
Section 3 are closely connected to specific, compelling
state ends, which justify any burden on First
Amendment freedoms. This is so in at least two
respects.
First, a state has a compelling interest in creating
and preserving its own balance of powers. Delaware is
well within its rights to curtail the permissible
discretion its political branches exercise over judicial
appointments. Although most states do not regulate
that discretion, Delaware has the right to view the
political branches’ ability to pack the courts with
members of a favored party as a threat to that balance
(whether that view is right or wrong). State judges
review the actions of the state legislative and executive
branches, and Delaware is free to think that partisan
hegemony over all three branches is detrimental to its

12
balance of power. This is especially so given that
Delaware’s political branches are frequently controlled
by one political party.
Second, Delaware also has a compelling interest in
ensuring that the judges reflect the mainstream
philosophical and policy views of the body politic as a
whole. In assessing “the basic conception of a political
community,” Sugarman, 413 U.S. at 647 (internal
quotation marks omitted), Delaware has chosen a
process designed to produce an ideologically balanced
bench that reflects the broader philosophical and
ideological views of the State’s general public. This is
every state’s interest, and it plainly justifies the
inquiries routinely made into judicial candidates’
political and philosophical speech and association
(discussed above, § I.A). Candidates’ right to join
extremist organizations does not vitiate a state’s power
to weed out candidates on this basis—as all states
do—since this is a strong indicator that a candidate is
unlikely to serve the public’s values as a constitutional
officer.
This interest also justifies Delaware’s limitation of
the political branches’ discretion. Delaware is among
the smaller states, and, as the framers recognized, oneparty control tends to be more durable “[t]he smaller
the society.” The Federalist No. 10, at 63–64 (J.
Madison) (Jacob Cooke ed., 1961). In Delaware’s
current political environment, conservative
philosophies would be chronically underrepresented,
absent a check on the political branches’ discretion. In
other environments, liberal philosophies may otherwise
be underrepresented. In this way, the views of a bare

13
majority (or even a predominant majority) may come to
be outsized, reflected in all of the judgeships, even
though a substantial subset of the population adheres
to different views.
As one of 50 laboratories of democracy, Delaware is
permitted to counteract this hegemony by promoting
political balance. A counter-majoritarian mechanism
like Delaware’s is a choice against a winner-take-all
judicial system.
One need not agree with this choice to see that,
since state actors will make political decisions in all
events, Delaware has a compelling interest directing
those considerations toward these ends, if it so chooses.
The court of appeals did not discount these interests
and hoped that Delaware will continue to pursue them.
b. Tailoring. Article IV, Section 3 is tailored to
these ends through the bare-majority and majorityparty components. See Pet.App.6a–8a.
The bare-majority components prevent the political
branches from appointing more than a bare majority of
judges “of the same political party,” Pet.App.6a, and
thereby employ a simple curtailment on discretion.
Limiting political actors’ ability to appoint members of
their own party is self-evidently tailored to the State’s
interests. Provisions like this are a common means of
preventing the political branches from obtaining
outsized control over bodies that are intended, like
Delaware’s judiciary, to be independent. Pet.App.31a
(listing the various agencies “that use some form of
political balance requirement”). The court of appeals
did not (and could not) find that this provision violates

14
the First Amendment
Pet.App.33a–34a.

on

its

own. 3

See

Meanwhile, the major-party requirement
necessitates that a minority of seats (or half, where
there is an even number) be held by members of the
“other major political party,” Pet.App.6a, and it is
appropriately tailored to prevent gaming. Without it, a
governor and friendly state senate could rig the process
by appointing favored party members to the majority of
seats and then stacking the remaining seats with
persons known to be favorable to that party, but who
are not its card-carrying members. As the court of
appeals recognized, it would “allow a Governor to
appoint a liberal member of the Green Party to a
Supreme Court seat when there are already three
liberal Democrats on that bench.” Pet.App.34a. By the
same token, it would allow a conservative Republican
governor to appoint a conservative member of the
Libertarian Party to a bench that already contains
three conservative Republicans.
That result would undermine the State’s interests
in independence and balance. Both interests can only
be met if judges who are meaningfully different from
the major-party judges sit on the remaining seats.
Allowing the political branches unfettered discretion
over the remaining seats undermines the State’s
interests. The court of appeals agreed with this in
finding the provisions inseverable. See id. (finding that
the State purpose was fulfilled “[o]nly with the…major

3

The court of appeals invalidated this provision only because it
deemed it inseverable from the major-party provision.

15
political party component”). But it failed to see that
this very reasoning justified the major-party
component under any applicable level of First
Amendment scrutiny.
2. Party Membership Is the Best Available
Proxy for Achieving These Compelling
Ends
Party membership is an effective proxy for all these
purposes, and it is the only workable proxy. The court
of appeals ignored this in finding party membership
irrelevant to the State’s interests, since (as it correctly
observed) judges do not go to the bench to effectuate
“the political will and partisan goals of the party in
power.” Pet.App.25a. No one here claims otherwise.
But this is beside the point. The question is not
whether party membership is an important component
of, or qualification for, judging. It is instead whether
party affiliation is an effective and tailored proxy by
which the State can police partisanship in
appointments and pursue the above-described ends. It
plainly is.
a. An Effective Proxy. Party membership is a highly
useful piece of information. Political parties do more
than send politicians to elected office to achieve a
“partisan political interest.” Pet.App.25a (quotation
marks omitted). They also serve the more fundamental
purpose of facilitating an organized and coherent
politics—in the broadest, Aristotelian sense. See E.E.
Schattschneider, Party Government 1 (1942). Political
parties facilitate governmental order by organizing
societal groups into identifiable units. They, in turn,

16
vet candidates to high offices and assist the general
public and state officers in identifying qualified persons
who can honorably and competently participate in
governance. Party membership is therefore a useful
proxy to help voters identify candidates’
philosophies—i.e., what they think is conducive to the
greater good—and predict how they will respond to
particular issues.
Delaware’s purpose in identifying candidates as
party members is not to create an expectation that they
will serve partisan platforms. It is as true in Delaware
as everywhere else that judges are not beholden to
special interests and do not view themselves as party
representatives. (Were it otherwise, “[p]raise for the
Delaware judiciary” would not be “nearly universal.”
Pet.App.38a.) Nor need judges be partisans for partisan
affiliation to be an effective proxy for the State’s
purposes. Even elected officials should, as a matter of
principle, serve the greater good and not be beholden to
one segment of the electorate at the expense of others.
But this principle does not prevent a state from
identifying candidates as members of a party on a
ballot or in office. Rather, a state’s “legitimate interest
in fostering an informed electorate” allows it to identify
candidates as members of a party. Eu v. San Francisco
Cty. Democratic Cent. Comm., 489 U.S. 214, 228 (1989).
Party is a helpful indicator of what a candidate is likely
to view as conducive to the good of the whole.
Likewise, a judicial candidate’s party membership
is a good indicator of the candidate’s judicial philosophy
and likely views on matters of constitutional and
common law in future cases. Judges’ separation from

17
partisan politics does not exempt them from the more
fundamental, broader political sphere, which includes
the administration of law. In turn, the philosophical
and doctrinal approaches a judicial candidate might
take in future cases are of intense public interest.
Political candidates campaign on the judicial
philosophies they believe should be represented on the
bench, and televised judicial confirmation hearings
have garnered astounding ratings. Partisan affiliation
is a piece of information that the general public finds
informative—because it is informative—and that is
highly relevant to the State’s legitimate goals in
appointments. Judges certainly must take the law they
find it, but party affiliation is a good indicator of what
a given judge will find when ambiguities arise.
Moreover, states are allowed to subscribe to the
suspicions, right or wrong, of many political scientists
that political biases influence judging–often
unintentionally. See, e.g., Cass R. Sunstein et al., Are
Judges Political? An Empirical Analysis of the Federal
Judiciary 10 (2006) (“In most of the areas investigated
here, the political party of the appointing president is
a fairly good predictor of how individual judges will
vote.”) Thus, states, for example, may legitimately
“require that precincts be supervised by two election
judges of different parties” precisely because of the
valid concern that the judges will be biased towards
their own parties and perspectives. Branti v. Finkel,
445 U.S. 507, 518 (1980). This is a compelling interest
even though—actually, because—the election judges
should rule on the basis of the law and the facts. The
neutrality expectation is precisely why a State is
justified in pursuing balance and viewpoint diversity;

18
the court of appeals’ rationale that judicial nonpartisanship defeats the State’s goal of balance is
exactly backwards.
In this respect, a state’s conception of its own
“political community” merits special deference.
Sugarman, 413 U.S. at 647. Delaware does not have to
view its judges how the federal Constitution views
judges (or, for that matter, how the American Bar
Association views them, see Pet.App.24a). By
comparison, many states require judges to stand for
election and campaign for office,4 see Republican Party
of Minn. v. White, 536 U.S. 765, 784 (2002), and they
routinely raise money for supporters for that purpose,
see Williams-Yulee v. Fla. Bar, 575 U.S. 433, 445
(2015). State courts also engage in highly partisan
adjudications, like redistricting cases. See, e.g., Growe
v. Emison, 507 U.S. 25, 33 (1993) (requiring federal
judicial deference to state courts in the “highly political
task” of redistricting). Some even exercise legislative
functions. See, e.g., Supreme Court of Va. v. Consumers
Union of U.S., Inc., 446 U.S. 719, 731 (1980). In opining
that party membership is unrelated to the concerns of
judging in Delaware, the court of appeals improperly
rendered a value judgment that is Delaware’s to make.

4

A recent survey found that 29 states conduct elections for their
trial-court seats, and nine employ partisan elections; meanwhile,
21 states conduct elections for their state supreme court seats, and
six employ partisan elections. See Brennan Center for Justice,
Judicial Selection: An Interactive Map, available at
http://judicialselectionmap.brennancenter.org/?court=Supreme
(last visited Jan. 27, 2020).

19
b. The Only Proxy. The Delaware Constitution
cannot plausibly reduce a better proxy into law. It
cannot say that only a majority of judges can be
“conservative or liberal”; these requirements are
hopelessly vague. It cannot identify specific viewpoints
(e.g., “originalist” or “living constitutionalist”) because
issues of the day change and cease to be relevant over
time. Referencing membership in other types of
associations, like the Federalist Society or American
Constitution Society, would create more problems than
it would solve.
None of these alternatives is “appropriate” to ensure
the “effective” achievement of the State’s interests.
Branti, 445 U.S. at 518. For that matter, none provides
“means significantly less restrictive on associational
freedoms.” Janus, 138 S. Ct. at 2465 (internal
quotation marks omitted). Any other criterion of speech
or association burdens First Amendment rights at least
as much as, if not more than, a party-membership
proxy.
By comparison, the major-party requirement is
narrowly tailored. It is set to adjust with the
times—that is, with new parties and new philosophies
for which they serve as proxies. This tethers the
judicial appointment process to the organically
developing body politic and to jurisprudential
developments. Similarly, by linking the restriction on
discretion to the major parties then in power, the proxy
ties the nominations to objective measures of the
mainstream, much like a proportional-representation
system in voting might do. It also provides the
maximum opportunity for candidate participation,

20
since everyone from the (relatively) far right to the
(relatively) far left can be at home in one of these
parties. This is quite different, for example, from
regimes requiring citizens to associate with a single
narrow segment of the political spectrum, such as by
joining only one available labor union, to obtain a
meaningful voice with government decisionmakers. Cf.,
generally, Minn. State Bd. for Cmty. Colleges v. Knight,
465 U.S. 271 (1984).
The plaintiff has identified no other means to
achieve the State’s ends, and it is not even in dispute
that this means does meet the State’s ends. The court
of appeals found that “the constitutional provisions
which we today invalidate have resulted in a political
and legal culture” of “bipartisan excellence.”
Pet.App.41a. This is powerful evidence that this
century-old provision has operated as intended and to
the State’s benefit. The court of appeals’ express
encouragement of the same (supposedly)
discriminatory decisions proves the incoherence of its
ruling.
True, the party-membership proxy is not perfect. A
member of the “other major” party may be
clandestinely a majority-party sympathizer who joined
the “other” party solely for opportunistic reasons—just
as an election judge designated a “Democrat” may
secretly be a Republican operative. But see Branti, 445
U.S. at 518 (signaling approval of a party requirement
for election judges anyway). But this proxy is still
better than any alternatives because it places a steep
cost on this gamesmanship. It requires this clandestine
candidate to go so far as to associate formally with the

21
opposition party—an act that itself may draw valid
scrutiny. By comparison, eliminating the major-party
rule, but maintaining the bare-majority rule, would
allow dominant-party members to be appointed to the
“minority” seats simply by choosing not to formally
associate with the dominant party. Many persons who
favor one party over another simply do that by
accidentally failing to register as members.
Hence, the major-party rule protects against
gamesmanship in a way that an “independence”
requirement would not and in a way that the baremajority rule alone does not. No one, not the district
court, not the court of appeals, and not the plaintiff,
has identified a better proxy for achieving the State’s
ends.
C. The First Amendment Interests at Issue
Are Comparatively Weak
On the other side of the balance stand the plaintiff’s
First Amendment interests. The burden on these
interests is not “severe” and therefore does not override
the State’s interests. Burdick, 504 U.S. at 434 (internal
quotation marks omitted).
First, there appears to be no flat bar on an
independent’s service on the judiciary. The political
branches are prohibited from filling more than a bare
majority of seats with members of the majority party,
but the courts below erred in interpreting this limit on
discretion as a mandate to appoint major-party
members. See below § II.A. Although Article IV, Section
3 restricts which seats the plaintiff may obtain, which
may qualify as a burden on First Amendment rights

22
(perhaps because not all seats are open at the same
time), this burden is more limited than an outright
prohibition.
Second, the First Amendment interests here exist
only on the margins. No one disputes that the
plaintiff’s First Amendment views can prove
disqualifying, depending on what they are and on the
views of those in the political branches. The plaintiff
can even be excluded for leaving the Democratic Party.
And this is the more likely outcome. A Democratic
governor seems unlikely to appoint a person who
declines to affiliate with the Democratic Party, and an
independent who cannot persuade the political
branches to appoint an independent to the seats over
which those branches currently exercise unlimited
discretion is unlikely to persuade them when they
exercise unlimited discretion over all seats. Thus, as
far as the plaintiff’s asserted rights are concerned, the
difference between the regime that exists and the one
he wants is small, perhaps indistinguishable. (By
comparison, the difference is significant as far as the
State’s interests are concerned.)
Third, the positions here are relatively few in
number, and Article IV, Section 3 therefore does not
negatively impact a broad segment of the populace. The
“widespread impact” of a burden on First Amendment
rights is a factor favoring higher scrutiny, Nat’l
Treasury Emps. Union, 513 U.S. at 468, and the
restricted impact here counsels in favor of a lower
standard. The restrictions do not impact anyone’s
ability to earn a livelihood, since lawyers with a
reasonable shot at a judgeship are presumably already

23
successful attorneys. Cf. Janus, 138 S. Ct. at 2461
(striking down burden on the rights of “35,000 public
employees”).
To be clear, these restrictions would be deemed
burdens on First Amendment rights in most
circumstances, and the Court may be justified in
treating them as burdens here.5 But this Court’s First
Amendment jurisprudence requires a balance, and the
plaintiff’s interest here, under these unique
circumstances, is comparatively light and the State’s is
comparatively weighty. The balance here favors the
State.
D. Upholding Article IV, Section 3 Will Not
Impact Other Applications of First
Amendment Doctrine; Striking It Down
Will Raise a Host of New Questions
The State’s highly unique interests here, and the
individual’s muted interests, exist only in the most
limited circumstances, and a ruling in the State’s favor
has no chance of upsetting the settled application of
law in other areas. On the other hand, a ruling for the
plaintiff may threaten established practice, if not
settled law, because it risks exposing the judicial5

This would be the difference between reversing under First
Amendment balancing, as the RNC proposes here, and reversing
under the policymaking exception, as the petitioner proposes in his
lead merits argument. The latter option would result in a brightline rule exempting judicial-appointment cases from First
Amendment scrutiny, and it finds support in much of the RNC’s
reasoning here. It may, however, be more prudent for the Court to
reverse under the more narrow balance-of-interests inquiry and
leave the policymaking exception for development in future cases.

24
appointment process to federal oversight—a serious
invasion of state sovereignty.
1. Limited Impact of Reversal. This case is
distinguishable from practically every First
Amendment dispute that might come before the Court,
save those by aspirants claiming a First Amendment
right to a gavel. Allowing Delaware to restrict its own
officers’ political discretion over appointments will not
translate into broad rules allowing widespread (or even
isolated) discrimination in public employment. A ruling
upholding Article IV, Section 3 may not even apply to
other higher-level offices that are not core
constitutional offices or are not subject to a
longstanding tradition, traceable to the founding
generation, of political appointments. Cf. Town of
Greece, N.Y. v. Galloway, 572 U.S. 565, 577 (2014)
(“Any test the Court adopts must acknowledge a
practice that was accepted by the Framers and has
withstood the critical scrutiny of time and political
change.”).
And the State’s choice here is not like other choices
that would rightly trigger skepticism. This is not at all
like a requirement that all judges join one identified
party; that would work against the compelling interests
in independence and balance Delaware has identified
here and could not be justified under any level of
scrutiny. For that matter, Article IV, Section 3 is not
like a requirement that a judge or other officer belong
to no party, since an “independence” requirement is an
especially bad proxy for actual independence—there
being no way to ensure that someone claiming no

25
affiliation is not, in fact, among the most extreme of
partisans.6
2. Potentially Unlimited Scope of Affirmance. On
the other hand, an affirmance would raise troubling
questions. The First and Fourteenth Amendments do
not normally recognize a distinction between a but-for
cause—which certainly occurs in judicial
nominations—and a codified classification. See, e.g.,
Hunt v. Cromartie, 526 U.S. 541, 546 (1999); Rutan v.
Republican Party of Ill., 497 U.S. 62, 77–78 (1990)
(“What the First Amendment precludes the
government from commanding directly, it also
precludes from accomplishing indirectly.”). Thus,
subjecting Article IV, Section 3 to strict scrutiny would
call into question all political considerations in all
judicial-appointment processes and may subject those
processes to judicial review—including through broad
discovery. This would contravene bedrock federalism
and separation-of-powers principles.
The court of appeals did little to mitigate this
potentially revolutionary aspect of its ruling. It said the
ruling would not prevent “a governor [from] asking a
judicial candidate about his philosophy on sentencing”
but did not clarify whether it would allow a governor to
reject the applicant because of the answer given.
Pet.App.29a. Worse, the court of appeals explained that
its ruling may prevent a governor from “posting a sign

6

Thus, the Court need not decide here whether a state may
prohibit persons who belong to a political party from serving on a
redistricting commission. See Daunt v. Benson, No. 1:19-cv-00614,
2019 WL 6271435 (W.D. Mich. Nov. 25, 2019).

26
that says ‘Communists need not apply.’” Pet.App.29a.
But this is quite close to what administrations do—and
always have done: decline even to consider candidates
based on political affiliations and speech. Many
administrations would not consider a Communist, not
to mention an active Klansman.
Seeking a line between permissible and
impermissible political considerations in the
nominations process is like seeking that line in
legislative-redistricting process. Rucho v. Common
Cause, 139 S. Ct. 2484, 2497 (2019). The process itself
“turns out to be root-and-branch a matter of politics.”
Vieth, 541 U.S. at 285 (plurality opinion). Judicial
selection is inherently political, it is entrusted to
politicians, and there is no judicially manageable
standard differentiating valid and invalid political
considerations in the appointments process.
Whether or not these problems justify exempting
Article IV, Section 3 from any scrutiny, they at least
call for an appropriately tailored standard and judicial
intrusion in only the most extreme cases. Any decision
invalidating Article IV, Section 3 that does not provide
crystal-clear limits risks opening the door to
innumerable new lawsuits by disappointed judicial
candidates, complete with unlimited funding by special
interests looking to rig the judiciary for their own ends.
The Court should avoid this at all costs.
Where, as here, the political-party requirement is
tailored toward balance and independence, there is no
extreme case and no cause for federal intervention into
this most sensitive of state matters.

27
II. The Plaintiff Cannot Show Injury Where He
May Obtain an Appointment, or
Redressability Where a Favorable Ruling
Would Allow Him Still To Be Rejected for
Purely Political Reasons
The plaintiff’s claim fails for the additional reason
that he lacks standing. He cannot show injury in fact
without first applying to a judicial office. And he cannot
show redressability because no injunction can protect
him from the political “discrimination” he claims as his
injury.
A. Injury in Fact. The plaintiff has not sought a
judicial appointment and may never do so. The court
below found merely that “he would consider applying
for a judicial seat on any of Delaware’s five
constitutional courts.” Pet.App.14a. But an asserted
interest in sometime—maybe—seeking a seat is
academic and insufficient to confer standing. See, e.g.,
Lujan v. Defenders of Wildlife, 504 U.S. 555, 564
(1992); Warth v. Seldin, 422 U.S. 490, 503 (1975).
The court of appeals excused the plaintiff from
tendering an application before suing because it
believed the effort would be “futile.” Pet.App.15a. But
it may not be futile; Article IV, Section 3 may permit an
independent to be appointed to most seats. Its baremajority rule merely requires that “not more than onehalf of the members of all such offices shall be of the
same political party.” Del. Const., art. IV, § 3 (“Second,”
“Third,” “Fourth,” “Fifth,” and “Sixth” paragraphs).
This language does not prevent the appointment of an
independent; it operates under current circumstances
merely to limit the number of Democratic members on

28
these seats, rather than as a bar on non-Democrats.
Pet.App.34a.
To be sure, the adjacent major-party components of
some paragraphs (i.e., the “Second” and “Third”) set
aside the “remaining” seats for “members” of the “other
major political party”—here, the Republican Party. The
decision below apparently read the phrase “other major
party” to link with the phrase “same major political
party” and together to create a binary structure, so that
all judges who are not Democrats must be Republican
and vice versa. See Pet.App.34a. But that is not the
only reading, or even the best. Both phrases link to the
identical verbiage “such offices,” which seems to signify
a static number of seats for members of the “other
major party,” not a fluid number depending on how
many judges of the “same political party” are
appointed. Under current circumstances, a majority of
“offices” (or half, if the number is even) may be held by
Democrats but may also be held by independents; only
a minority (or half, if the number is even) are set aside
for Republicans.
In fact, the court of appeals admitted that the baremajority provision can, standing alone, “be interpreted
to allow a Governor to appoint a liberal member of the
Green Party” to a judgeship. Pet.App.34a. It can
continue to be read this way even after the major-party
provision is tacked on; it is not necessary to read the
major-party provision as injecting a different, more
restrictive meaning into the bare-majority provision.
And there is still more ambiguity. For one thing, the
different courts are governed by different language. For
example, the “Second” paragraph governing the

29
Delaware Superior Court contains no major-party
component when it has an “even number of seats,” even
though a major-party component kicks in when it has
an “odd number” of seats. Even the language of the
“First” paragraph, which seems to require that “three
of the five Justices” of the Delaware Supreme Court
must be from the dominant “major political party” (i.e.,
Democrats) and “two” must be of the other major
political party (i.e., Republicans), may be amenable to
a not-strictly-literal reading—in light of the provision’s
structure, the apparent overlap with the “Third”
paragraph, and the overriding purpose of limiting
discretion, rather than of mandating that politicians
appoint members of their own party (as they need
hardly be told to do). See, e.g., Bridgeville Rifle & Pistol
Club, Ltd. v. Small, 176 A.3d 632, 638 (Del. 2017)
(identifying purpose of constitutional provision as
relevant to its meaning). Even this Court does not
always assign a constitutional provision its strictest,
literal meaning. See, e.g., Tenn. Wine & Spirits
Retailers Ass’n v. Thomas, 139 S. Ct. 2449, 2462 (2019).
The “First” paragraph, then, may be read as permissive
rather than as mandatory.
All of this means that it is unknown whether the
plaintiff might not only be eligible for a seat, but also
obtain one—if he would only try. The court of appeals
assumed the most restrictive possible interpretation,
taking as a given that this web of differently worded
components operate as an outright bar on
independents. But federal courts should do the
opposite: they should generally refrain from
“unnecessary ruling[s]” that may be “supplanted by a
controlling decision of a state court.” R.R. Comm’n of

30
Tex. v. Pullman Co., 312 U.S. 496, 500 (1941). The
Delaware Supreme Court has not definitely construed
Article IV, Section 3 as forbidding an independent from
obtaining a judicial seat, and the Delaware judiciary
remains open to the plaintiff and able to provide relief,
through either a more limited interpretation or an
adjudication of the First Amendment issues.7 At a bare
minimum, the plaintiff should at least apply so that it
will be clearer how this provision would be construed in
his case.
B. Redressability. The plaintiff also cannot show
redressability because an injunction is unlikely to
increase his odds of obtaining an appointment, and it
would not even prevent the plaintiff from being rejected
for purely political reasons—even for not being a
Democrat.
For all anyone knows, the plaintiff’s application, if
tendered, would be rejected for reasons unrelated to his
party affiliation. Judgeships are not easy to obtain.
There are over 3,200 attorneys in the Delaware Legal
Directory, any of whom may well aspire to be a judge
and may be more qualified or have more support from
the appointment authorities.8

7

Although the Delaware Supreme Court declined a request for an
advisory opinion on this subject, In re: Request for an Opinion of
the Justices, 155 A.3d 371, 373 (Del. 2017), the Delaware courts
would presumably treat a lawsuit differently.
8

Delaware State Bar Association, Legal Directory, available at
https://www.dsba.org/publications/delaware-legal-directory/ (last
visited Jan. 27, 2020).

31
The governor may have any number of reasons to
decline to nominate, or the senate to confirm, the
plaintiff. In fact, the injunction below does not prevent
the governor from rejecting the plaintiff because he is
not a Democrat. It only makes it easier, not harder, for
the governor to reject non-Democrats.
Accordingly, the plaintiff’s injury cannot be
redressed in this lawsuit. There can be no Article III
standing if, even after the plaintiff prevails, the
plaintiff’s redress still hinges on the “unfettered choices
made by independent actors not before the courts….”
ASARCO Inc. v. Kadish, 490 U.S. 605, 615 (1989)
(opinion of Kennedy, J.); see also Lujan, 504 U.S. at
562; Simon v. E. Ky. Welfare Rights Org., 426 U.S. 26,
45–46 (1976). A federal court cannot compel the
governor to appoint the plaintiff or even to read his
application or to interview him. Nor can a federal court
require any of these things from Delaware’s senate.
Nor does the injunction below limit their discretion to
reject the plaintiff. It adds no meaningful likelihood to
the plaintiff’s hope of becoming a judge. Because there
is no redress available, the case should be dismissed for
lack of standing.

32
CONCLUSION
The decision below should be reversed.
Respectfully submitted,
Justin Riemer
Christopher White
Republican National
Committee
310 1st Street SE
Washington, DC 20003
(202) 863-8626
Patrick T. Lewis
Baker & Hostetler LLP
Key Tower
127 Public Square
Suite 2000
Cleveland, OH 44114
(216) 861-7096

Richard B. Raile
Counsel of Record
E. Mark Braden
Katherine L. McKnight
Trevor M. Stanley
Baker & Hostetler LLP
1050 Connecticut Ave., N.W.
Suite 1100
Washington, DC 20036
(202) 861-1711
rraile@bakerlaw.com

Counsel for Amicus Curiae

